LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 25, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-255:

THOMAS MORE LAW CENTER
GENERAL OF CALIFORNIA

V.

XAVIER BECERRA, ATTORNEY

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for Amicus Curiae The Institute for Free Speech, on September 25, 2019, I caused
service to be made pursuant to Rule 29 on the following counsel for the Petitioner and
Respondent:
PETITIONER:
John J. Bursch
Alliance Defending Freedom
440 First Street, NW
Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@adflegal.org

RESPONDENT:
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
The Institute for Free Speech in Support of Petitioner in an official “first class mail”
receptacle of the United States Post Office as well as by transmitting a digital copy via
electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

